Office of



          Office of Inspector General
           for the Millennium Challenge Corporation


September 30, 2010

Mr. Dennis Nolan
Deputy Chief Financial Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Subject:            Limited Scope Review of the Millennium Challenge Corporation (MCC)
                    Resources Managed by Millennium Challenge Account-Mali (MCA-Mali), Under
                    the Compact Agreement between the MCC and the Government of Mali
                    (Report No. M-000-10-004-S)

Dear Mr. Nolan:

This letter transmits our report pertaining to our limited scope review of MCA-Mali. The Office of
Inspector General performed this review, in part, to obtain reasonable assurance that (1) MCA-
Mali’s representations in its fund accountability statements complied with MCC’s “Cost
Principles for Government Affiliates Involved in MCC Compact Implementation,” its fiscal
accountability plan, the compact, and other applicable laws, regulations, and guidance; and
(2) MCA-Mali had complied with MCC’s “Policies and Procedures for the Common Payment
System.”

This report includes 13 audit recommendations regarding instances in which MCA-Mali’s
expenditures and internal controls did not fully comply with applicable rules, regulations, and
guidance. Specifically, recommendation No. 1 addresses an issue that may potentially impact
the completion of the compact; recommendation No. 2 addresses funds put to better use;
recommendation Nos. 3 through 8 addresses internal control deficiencies, and
recommendations Nos. 9 through 13 address question costs identified during our review.
Based on the responses provided by MCA-Mali officials, we consider final action taken on
recommendations No. 1, 2, and 4, and management decision reached on recommendations No.
3, 5, 6, 7, and 8. However, no management decisions were reached for recommendations No.
9, 10, 11, 12, and 13, which related to the questioned costs of $407,767 at MCA-Mali.
Therefore, we are redirecting recommendation No. 13 to MCC’s management in a separate
letter. The Findings section of this report discusses the findings and recommendations in detail.




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
I appreciate the cooperation and courtesy extended to my staff during this review. This
report is being transmitted to you for your action. Feel free to contact me Alvin Brown at
(202) 216-6962. Please advise the USAID Assistant Inspector General for the
Millennium Challenge Corporation within 30 days of this letter.


Sincerely,

      /s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation



cc:         William Gallagher, MCC, Senior Director of Compact Implementation
            gallagherwj@mcc.gov

            Jocelyn Jolly, MCC, Administration and Finance
            jolleyjm@mcc.gov

            Kevin Mitchell, MCC, Director, Fiscal Accountability
            mitchellkd@mcc.gov

            Arlene McDonald, MCC, Compliance Officer
            mcdonalda@mcc.gov




                                                2
BACKGROUND

On November 13, 2006, the Millennium Challenge Corporation (MCC) and the Government of
the Republic of Mali signed a 5-year, approximately $461 million compact. The compact aims to
support policy reform and the development of key infrastructure by addressing Mali’s constraints
to growth and capitalizing on two of the country’s major assets: the Bamako-Sénou International
Airport as a gateway for regional and international trade and the Niger River Delta for irrigated
agriculture. These investments will create a platform for increased production and productivity
of agriculture and small and medium-sized enterprises, as well as expand Mali’s access to
markets and trade.

OBJECTIVES

The Assistant Inspector General/Millennium Challenge Corporation performed this review of
Millennium Challenge Account-Mali (MCA-Mali) to answer the following questions:

   •   Are MCA-Mali’s expenditures allowable, allocable, and reasonable per MCC’s “Chapter
       37: Cost Principles for Government Affiliates Involved in MCC Compact
       Implementation”?

   •   Is MCA-Mali complying with MCC’s “Policies and Procedures for Common Payment
       System” and its own fiscal accountability plan (FAP)?

DISCUSSION

This letter provides the results of the fieldwork performed to address the objectives mentioned
above, as well as other issues that came to our attention.

Are MCA-Mali’s expenditures allowable, allocable, and reasonable per MCC’s
“Chapter 37: Cost Principles for Government Affiliates Involved in MCC Compact
Implementation”?

Our review identified numerous instances in which MCA-Mali’s expenditures were not allowable,
allocable, or reasonable per MCC’s “Chapter 37: Cost Principles for Government Affiliates
Involved in MCC Compact Implementation.” Questioned costs totaling $407,767 were identified
at MCA-Mali.

Is MCA-Mali complying with MCC’s “Policies and Procedures for Common
Payment System” and its own fiscal accountability plan (FAP)?

No instances of non compliance with MCC’s “Policies and Procedures for Common Payment
System” or MCA-Mali’s Fiscal Accountability Plan came to our attention during this review.




                                               3
FINDINGS
MCA-Mali Should Plan Measures to Ensure Timely Project Completion

USAID AIG/MCC Finding

According to project and airport officials, customs clearing is one area that has the
potential to delay the completion of the project if it is not addressed early in the process.
With only 30 months remaining in the project, MCA-Mali needs to develop a plan to
prevent further delays to compact activities in order to complete the $461 million
compact on time and within budget. The adequacy of time and budget are now the most
important considerations driving project activities. The actual construction work has not
yet begun on the Bamako Airport Expansion project, and it is estimated to take a
minimum of 24 months to complete. The two large projects (Alatona Irrigation and
Airport Expansion) must be completed within very tight deadlines, or funding could be
lost and some activities may not be accomplished.

   Recommendation No. 1: We recommend that, to avoid potential delays, MCA-
   Mali initiate planning to arrange for clearance or approval from customs that will
   expedite the movement of project materials and supplies through customs.

MCA-Mali Management Response

MCA-Mali has sent a letter to the Government of Mali on July 15th 2010, in order to
intervene on his behalf with the Customs and Tariffs authorities to expedite the receipt of
a tax exemption status for our vendors/consultants. A copy of this letter is joining in
annexes to our response.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached on this recommendation
and final action taken.


Planned Procurements Are No Longer Needed

USAID AIG/MCC Finding

Our review identified a two planned procurements that may no longer be needed.
Specifically, MCA-Mali planned to renovate its office space; however, the Director
General has agreed that this previously planned expenditure is no longer essential,
thereby saving about $300,000 to further project activities.

   Recommendation No. 2: We recommend that MCA-Mali review the status of all
   planned expenditures and cancel any significant operational expenditures, such
   as the planned building renovation, that are not directly related to project
   activities.


                                             4
MCA-Mali Management Response

MCA Mali has already cancelled the renovation works of its office building. This is
documented in the latest DFP submitted for approval at MCC on June 14, 2010. These
expenses were included as necessary renovations to the space to meet MCA’s business
needs when selecting the office space for MCA-Mali headquarters. Given delays in
procurement and the reality that MCA-Mali is in the third year of implementation, we
agree that MCA-Mali can do with the space as is, and agree to cancel this work. Please
note that the decision to cancel the renovations works was taken before OIG’s visit.

Subsequent to this recommendation, MCA has reviewed all administrative-related
expenditures planned and already affected to assure efficient and effective use of
resources to achieve compact goals. This review did not reveal additional questionable
expenditures aside from the renovation.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached on this recommendation
and final action taken.


MCA-Mali Procurement Operations Manual Needs to Be Revised

USAID AIG/MCC Finding

The MCA-Mali Procurement Operations Manual (POM), dated August 2009, is not clear
and consistent with the MCC Program Procurement Guidelines (PPG) dated October
2009. The POM has not been updated to reflect the recent revisions in the PPG.

There is some procedural overlap with respect to the various procurement methods used
by MCA-Mali. For example, the POM does not specify the threshold amount for limited
bidding (short-lists) contracts to be forwarded to MCC for approval. MCA-Mali officials
stated that the amount is $200,000; however, MCC’s PPG specifies a lower threshold
limit of $100,000. This discrepancy indicates the importance of a current and clear POM
for MCA-Mali.

Shopping is a procurement method based solely on comparing three quotations and
incorporating the selected offer into a purchase order or brief contract without the
involvement of the procurement agent. Shopping is intended to facilitate smaller
procurements, but it is vulnerable because it lacks higher-level approval requirements.
According to MCC’s PPG, shopping may be used when a contract has an estimated
value of $200,000 or less ($300,000 for vehicles). MCA-Mali uses a limit of $50,000
before requiring MCC approval for “shopping” procurements. However, the PPG has
raised this limit to $100,000 (as mentioned on PPG, page 64). This change increases
the need for clear, documented instructions on using the “shopping” method.

   Recommendation No. 3: We recommend that MCA-Mali revise its Procurement
   Operations Manual to be consistent with the Millennium Challenge Corporation
   Program Procurement Guidelines, and include the correct thresholds for all
   procurement methods.


                                          5
MCA-Mali Management Response

We accept the above recommendation No. 3. Further, a review of the POM is in
progress at the PA level and all inconsistencies with the PPG will be corrected NLT 31
10.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached for this recommendation.
Please provide a copy of the updated POM. Final action cannot be reached until we
have received a copy of the updated POM. We will also make a recommendation to
MCC regarding the approval of this procurement.


MCA-Mali Needs to Ensure Numerical Order for Purchase Requisition Notes

USAID AIG/MCC Finding

MCA-Mali recently changed its system for assigning numbers to purchase requisition
notes, and there was some brief uncertainty about the numbering process. However,
sequential numbering is an essential element of procurement control. Also, it was
mentioned that on occasion in the past, some purchase requisitions did not include cost
estimates.

   Recommendation No. 4: We recommend that MCA-Mali revise its Procurement
   Operations Manual to describe the numbering process to be used for purchase
   requisition notes and to require that purchase requisition notes include estimated
   costs.

MCA-Mali Management Response

Since April 2010, a new template for Purchase Requisition Note is being used at MCA-
Mali. The new template indicates the estimated cost. A sequential numbering system of
the Purchase Requisition Note is implemented and performed by the secretary office of
the Procurement Department. Attached is a copy of the new template of the Purchase
Requisition Note.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached and final action taken for
this recommendation.


Vehicle Use Policy Needs Revision

USAID AIG/MCC Finding

MCA-Mali does not have an effective vehicle control policy. The MCA-Mali Manual of
Administrative Procedures does incorporate a vehicle policy requiring that vehicles be
used “exclusively for the needs of the program.” However, the policy lacks the
necessary internal control procedures to ensure effective controls that prevent personal

                                           6
use of MCA-Mali vehicles, such as requiring signatures for users and recording trip
mileage. Furthermore, some vehicles are assigned directly to department heads, and
internal controls should be instituted to ensure that vehicle use is restricted to the needs
of the program.

   Recommendation No. 5: We recommend that MCA-Mali revise its vehicle policy
   to establish proper control and accountability over vehicle use that includes (a)
   destination signatures by users and (b) accounting for mileage and fuel usage.

MCA-Mali Management Response

Currently, MCA-Mali maintains a mileage log for the proper usage of its vehicles. MCA-
Mali will now ensure that each driver records the mileage on departure, each destination,
and after each refueling and return trip. The MCA will require a signature of the log by
each passenger. MCA-Mali will undertake the training of drivers in the proper
completion of these logs. The analysis of fuel consumption will be made by the Service
Agent at the end of each month as usual and an approval by the DAF [Deputy for
Administration and Finance] of such analysis will be documented and retained. This
procedure started in current month of July 2010. Vehicles on board sheets are attached
in annexes of this response. The next revision of the FAP foreseen in October 2010 will
include these changes.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached for this recommendation.
Please provide a copy of the updated FAP. Final action can be taken only once the
revised FAP is provided to us for our review.


Human Resources

USAID AIG/MCC Finding

A review of personnel files identified six MCA-Mali employees who were working under
expired contracts. Additionally, some personnel files lacked personnel evaluations,
applications, and the basis for significant personnel actions. MCA-Mali indicated that it
was in the process of hiring a new Deputy for Administration and Finance (DAF) who will
have the responsibility to ensure that personnel files are current and complete.

   Recommendation No. 6:         We recommend that MCA-Mali establish valid
   employment contracts for all employees.

MCA-Mali Management Response

MCA Mali was awaiting the recruitment of the new DAF to complement the existing team
and help to improve personnel management. The DAF is finally on board since June 7,
2010, and the contracts of six (6) concerned by your comment has been updated (see
attached copy). Now all our employees have valid contracts with MCA.




                                             7
USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached. Please provide a copy of
the updated contracts. We will consider final action taken once a copy of the employee
contracts is provided to us for our review.

   Recommendation No. 7: We recommend that MCA-Mali develop and implement
   a plan to fully implement its Manual of Administrative Procedures to ensure that
   all personnel files are complete, including personnel evaluations, applications,
   memos of negotiation, and reasons for significant personnel actions.

MCA-Mali Management Response

MCA Mali has a set of procedures for the recruitment, assessment and management of
personnel. It lacks, however, an administrative procedure manual. The DAF is already
analyzing the various procedures in place in order to develop and implement the
administrative procedure manual by the end of October 2010 which includes all
questions above

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached on this recommendation.
Please provide a copy of the updated set of procedures, which includes the
administrative procedure manual. We will consider final action taken once a copy of the
updated procedures is provided for our review.


Reasonableness of Independent Consultants’ Compensation Rates

USAID AIG/MCC Finding

MCC in Washington, DC, advised the Resident Country Director for Mali that the
consultants’ rates for the MCA-Mali technical evaluation panels “must be supported by
the consultant’s salary history and MCA-Mali’s price reasonableness analysis.”
However, in an e-mail sent to MCA-Mali, the Resident Country Director for Mali stated, “I
suggest that a memo to the file be prepared saying that 230,000 [CFA] per day is the
going rate for this work in Bamako [Mali] and is reasonable. (Alternatively you could ask
the FA [Fiscal Agent] to verify.)” The audit team selected two transactions involving
payments made to consultants serving on MCA-Mali technical evaluation panels.
However, the procurement files related to these transactions could not be located, and
there was no evidence that MCA-Mali performed either a review of the consultants’
salary histories or a price reasonableness analysis.

   Recommendation No. 8: We recommend that MCC require that all accountable
   entities have their proposed independent consultants prepare a “Contractor
   Employee Biographical Data Sheet” and certify that the historical consultant rates
   presented on such forms are accurate and true, in order to ensure that
   independent consultants’ proposed rates are reasonable and comparable to
   historical compensation rates.



                                           8
MCA-Mali Management Response

The specific cases that are the subject of this recommendation relate to difficult
situations where high-level national consultants were involved. Their fees have served
as a basis of negotiation which explains the significance of the rates which unfortunately
had not been sufficiently documented. MCA Mali now committed to document the
reasonableness of the proposed rate of the independent consultants. Expected time of
completion 06/06/2010.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We consider that a management decision has been reached for this recommendation.
Please provide a copy of the documented rates once completed. This will enable us
determine that final action has been taken.


Are MCA-Mali’s expenditures allowable, allocable, and reasonable per
MCC’s “Chapter 37: Cost Principles for Government Affiliates Involved in
MCC Compact Implementation”?

The audit team identified questioned costs of $407,767 for the following items:

                   Summary of Findings and Questioned Costs by Category

                                                  Questioned
                               Category             Costs            Notes

                 Vehicles                         $   376,008           2
                 Employee Compensation                 14,006           3
                 Travel – Premium Class Airfare        12,200           4
                 Travel – Per Diem                      5,553           5
                                                  $   407,767


Notes

1. Computers

USAID AIG/MCC Finding

MCA-Mali purchased excess computers.        MCA-Mali has 54 computers for 35
employees. 1 At MCA-Mali’s offices in Bamako, Mali, the audit team observed that
several employees had both laptop and desktop computers sitting on the same desk. It
was explained that the laptops are needed for field visits. However, some of the

1
    Three of the employees are drivers.

                                              9
employees with two computers serve administrative, non-program-related functions and
by the nature of their job duties have little or no need for field visits.

   Recommendation No. 9: We recommend that MCA-Mali provide written
   justification for needing 54 computers for a staff of 35 and explain how the
   computers are currently being used.

MCA-Mali Management Response

Of the 54 computers, purchased by MCA-Mali, 17 (seventeen) had been purchased in
2007 on the CIF funds. They are no longer compatible with commonly used software
(AutoCAD, MS-Project, Symfact) and are in most cases useless. Of the remaining
37(thirty seven) computers, there are also six (6) laptops that are defective. Employees
at MCA-Mali with two computers (a desktop and a laptop) have issues with one or the
other computers in general. MCA-Mali has not yet decided on how to keep out of the
system the defective/broken computers. Therefore, there is a difference between the
number of computers available (whatever the state is) and the number of employees.

Regarding the use of laptops, it should be understood that apart from the travel to the
field by many employees of MCA-Mali, their workload also requires access to a laptop
outside the offices and beyond office hours. Such access would be impossible without a
laptop.

USAID AIG/MCC Evaluation of MCA-Mali Comments

During our observations, no employees possessing two computers stated that their
computers were defective. We reiterate our position that many of the employees with
two computers serve administrative, non-program-related functions and by the nature of
their job duties have little or no need for field visits. Finally, if employees’ workload
requires access to a laptop outside the office, then only laptop computers should be
purchased.

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.

2. Vehicles

USAID AIG/MCC Finding

MCA-Mali has too many vehicles. Presently, MCA-Mali has 11 vehicles, 6 assigned to
administration and 5 assigned to direct project activities. Generally, one would expect
more vehicles assigned to direct project activities than to administration. MCA-Mali
officials stated that the six vehicles assigned to administration are used by employees
for field visits. However, no evidence exists to support this statement. In fact, many of
the MCA-Mali employees who work in Bamako, Mali, serve administrative, non-program-
related functions, which by the nature of their job duties do not generally require field
visits. Additionally, the main project under the compact is 6 hours from MCA-Mali’s
offices in Bamako, Mali. This being the case, one would not expect many employees to
visit the field on a regular basis, thereby lessening the need for six vehicles to be
assigned to administration.


                                           10
Further, the procurement files for the vehicles, purchased in two separate transactions,
could not be located. Consequently, the audit team questioned the following $376,008
of vehicle costs in accordance with the Cost Principles:

               Questioned Vehicles
         Type of Vehicle               Cost

       Toyota Land Cruiser         $     51,928
       Toyota Land Cruiser               64,816
       Toyota Land Cruiser               64,816
       Toyota Land Cruiser               64,816
       Toyota Land Cruiser               64,816
       Toyota Land Cruiser               64,816
                                   $   376,008

MCC’s Cost Principles 2.1, General states,

   d. Costs, to be allowable, must meet all of the following criteria:

       1. Be allocable (see Section 2.2);
       2. Be reasonable (see Section 2.3);
       3. Be accounted for in a manner that is consistent with accepted international
          accounting practices or the policies and procedures of the Recipient Country;
       4. Be incurred within the Grant period, except as may be otherwise provided, in
          accordance with the conditions of the Supplemental Agreement;
       5. Be documented; and
       6. Not be excluded as an unallowable cost under Section 4.

Because of the absent procurement files, the audit team could not determine whether
the vehicles were purchased in an open and transparent matter or whether the
maximum value of compact funds was achieved by purchasing the vehicles through a
competitive process.

   Recommendation No. 10: We recommend that MCC develop and implement
   policies and procedures to ensure that its accountable entities purchase only the
   minimum type, quality, and quantity of vehicles necessary to accomplish the
   compact’s objectives.

MCA-Mali Management Response

MCA-Mali is a vast development program with two major projects: Airport (PAA) and
Alatona (PIA). The PIA whose area of coverage is over 400 km from Bamako covers a
radius of approximately 200 km. It includes six components, each with a Hydro
agricultural and community infrastructure can be considered a project single project on
its own partly because of the magnitude of these operations.




                                              11
The documentation of the «passation de Marché» will let you know about the value of
the vehicle. Only CFAO Motors Accepted to reduce his prices according to our budget.
The supporting document of this negotiation will be attached to the response.

There are three vehicles assigned to 5 agents based in Diabaly (Alatona Project). The
five (5) agents are in charge of close monitoring of service providers and managers
based in Bamako who in turn is in charge of the coordination and supervision missions.
Four (4) of the six (6) vehicles in Bamako that were supposed to be assigned to the
Finance and Administration department are instead used for coordination and
supervision missions for the implementation of the PIA. Only two (2) Peugeot sedans
are permanently used by the administration. Two (2) other vehicles are assigned to
Airport activities.

During major events in the field, it is often the case for MCA-Mali to rent vehicles to meet
its transportation needs. Regarding the purchasing of vehicles, we have documentation
currently in our archives to support these purchases. Please see a copy attached for
your reference.

Based on the above, it is our opinion that the amount of $376,008 spent to purchase the
six (6) Toyota Land Cruisers are allocable, reasonable, accounted for, incurred within
the grant period, documented and not excluded as unallowable under section 4.

USAID AIG/MCC Evaluation of MCA-Mali Comments

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.


3. Employee Compensation

USAID AIG/MCC Finding

The audit team questioned $14,006 of salary and employee benefits as not being
allocable to the compact in accordance with the “Cost Principles for Government
Affiliates Involved in MCC Compact Implementation.”

MCA-Mali notified an employee that his last day of employment would be June 30, 2009.
However, the employee’s employment contract extended through October 31, 2009. To
comply with the terms of the employee’s contract, MCA-Mali compensated the employee
for the 4 remaining contract months as well as for unused vacation time. MCC’s Cost
Principles 2.2, Allocability, states,

   To be allocable, costs must meet one of the following criteria:

       a. Be incurred for work related to the Grant, or
       b. Benefit both the Grant and other work, distributed to them in reasonable
          proportion to the benefits received, or
       c. Be necessary to the overall operation of the Government Affiliate, although a
          direct relationship to any particular cost element cannot be shown. In such
          cases, there must be at least an indirect showing of benefit to the Grant.


                                            12
From a legal standpoint, it was necessary to pay the employee for the months remaining
under the employment contract. However, the cost associated with paying an employee
for work not performed (1) was not incurred for work related to the compact, (2) did not
benefit the compact, and (3) was not necessary to the overall operation of MCA-Mali.

In addition, it appears that such payments are not allowable under Chapter 37: Cost
Principles for Government Affiliates Involved in MCC Compact Implementation, Section
4.2(z)(aa):

   "Retainer Fees not supported by evidence that specific bona fide services were
   furnished are not allowable."

Although the payment to the employee was not called a "retainer fee," it appears to be
indistinguishable in practice. This Cost Principle rule is designed to protect the
government from paying for services it does not receive, and that is exactly the problem
with the payments in this situation.

MCA-Mali Management Response

For the specific case of termination before the end of the contract with compensation of
months remaining, MCA applied the law in force in Mali. Any other approach would
have affected the reputation of the compact and thus jeopardize the achievement of its
objectives. The MCA-Mali has only followed the Labor Code in force in Mali. From our
point of view we just follow the Malian law in the matter.

USAID AIG/MCC Evaluation of MCA-Mali Comments

We recognize that the compensation was required to comply with Malian labor laws.
However, that fact does not make the compensation allocable to the compact.

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.




                                          13
4. Travel – Premium Class Airfare

USAID AIG/MCC Finding

The audit team questioned the following $12,200 of premium class airfare associated
with travel to Washington, DC:

                                Premium
                                  Class              Actual            Reasonable            Questioned
        Travel Date             Travelers             Cost                Cost                 Cost
                                                    (Premium            (Economy
                                                     Class) 2            Class) 3

    June 2009                         1            $     5,461            $     1,593          $     3,868
    December 2009                     2                  15,953                 7,620                8,333
                                                       $ 21,413           $     9,213         $     12,200

Appendix V, Business Travel Guidelines to MCA-Mali’s FAP, Section Air Travel, states,
in part,

    All MCA-Mali travelers are expected to travel using commercial airlines at the cost of
    “lowest logical airfare” in the FCFA region unless business circumstances cannot
    accommodate such scheduling or the medical condition of the individual requires
    other arrangements be made.

         •   In such cases, the employee must travel using the lowest-price coach class
             airfare available to achieve more appropriate scheduling.            Flights to
             international destinations exceeding 14 hours cumulated traveling time can
             be business class at the discretion of the MCA-Mali management. Any
             business class travel, even for trips greater than 14 hours, must be supported
             by a written justification, approved by the MCA-Mali DG [Director General].
             Possible justifications include:

             o    Medical condition of individual traveling
             o    Mission efficiency does not permit a stopover en route to destination
             o    Cost of an en route stopover exceeds business class airfare for the most
                  efficient route.

         •   If business class travel cannot be properly justified, travelers using economy
             class on extended journey flights (those exceeding 14 hours) may be
             authorized (at the discretion of the DG) an en route stopover. The stopover




2
  The premium class airfare reflected in this column is the actual cost of the premium class airfare incurred
by MCA-Mali.
3
  The economy class airfare is the actual cost of economy class airfare incurred by MCA-Mali. Multiple
MCA-Mali employees traveled on the trips shown in the table above, some in premium class and some in
economy class.

                                                    14
           may not be in a destination outside of the most efficient routing. This travel
           configuration means that the traveler is entitled to bill expenses for at least
           the following:

           a. An extra night in a hotel,
           b. Additional transfer costs, and
           c. Additional per-diem for the location involved.

       •   Original airline passenger receipt (Boarding Pass) must be submitted with the
           Travel Expense Report.

MCC’s Cost Principles 4.2dd1. Travel and Transportation Costs, states,

   “Travel costs are the expenses for transportation, lodging, subsistence and related
   items incurred by the Board of the Accountable Entity or employees of any
   Government Affiliate who are in travel status on office business related to the Grant.
   Such costs may be charged on an actual cost basis, on a per diem or mileage basis
   in lieu of actual costs incurred, or on a combination of the two, provided the method
   used is applied to an entire trip and results in charges not exceeding those which
   would be paid in accordance with MCC’s policies.”

MCC’s travel policies and procedures, with limited exceptions, do not allow employees to
fly business class. Specifically, MCC’s “Policies and Procedures for Temporary Duty
Travel” Section 6.17.4, Airline Accommodations, states, “Except as set forth below, MCC
travelers on official business must fly in coach seats.” Section 6.17.4 lists the following
exceptions to the requirement that MCC employees must fly in coach seats:

   •   Disability or special need (employee provides a current [less than one year old]
       statement from their treating physician attesting to the health reasons requiring
       business class);
   •   Security purposes or exceptional circumstances as determined by MCC make
       the use of business-class accommodations essential to the successful
       performance of the MCC’s mission;
   •   Coach accommodations on an authorized/approved foreign air carrier do not
       provide adequate sanitation or health standards;
   •   Flying in non-coach status would involve significant cost savings to MCC;
   •   Travel is paid by a non-Federal source; or
   •   Urgent travel where an OCONUS [outside of the continental United States] trip is
       in excess of 14 hours, and scheduling constraints preclude an en-route rest stop
       and require that the traveler report for scheduled work within less than 24 hours
       of scheduled arrival at the destination.

There was no written justification to support the necessity of premium class travel to
Washington, DC, as an alternative to utilizing an en-route stopover. Likewise, the
original airline passenger receipts (boarding passes) were not available for review. In
summary, the premium class travel to Washington, DC, resulted in charges exceeding
those that would be paid in accordance with MCC’s travel policies and procedures.
Consequently, the cost of premium class airfare that exceeds the cost of economy class
airfare is unallowable.



                                            15
    Recommendation No. 11: We recommend that MCC (a) clearly communicate to
    the management of all accountable entities that premium class travel should only
    be used under unusual circumstances, such as for urgent travel where a trip is in
    excess of 14 hours and scheduling constraints preclude an en route rest stop,
    and (b) ensure that all accountable entities do not have travel policies and
    procedures that would result in charges exceeding those which would be paid in
    accordance with MCC’s travel policies.

MCA-Mali Management Response:

Regarding the two cases for which the Chairman of the Supervisory Board and the CEO
of MCA Mali flew business class, the length of the trip took longer than 14 heures travel.
Incidentally, the CEO of MCA Mali had written a memorandum for the record as stated in
the FAP.

USAID AIG/MCC Evaluation of MCA-Mali Comments:

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.

5. Travel – Lodging

USAID AIG/MCC Finding:

The audit team questioned the following $5,553 of per diem costs related to MCA-Mali
employee travel to Washington, DC, because the per diem amounts exceeded the rates
authorized by the General Services Administration for travelers staying in Washington,
DC:


                                                   Lodging                  
                                            Actual   Allowable              
             Travel                          Daily        Daily                Questioned
             Dates            Days          Rate 4       Rate 5                  Cost
                                                                           
         May 2009              59           $ 279      $      209              $        4,130
         May 2009              12              269            209                         720
                                                                                          703 6
                                                                               $        5,553

MCC booked the hotel rooms on behalf of MCA-Mali, even though the daily lodging rate
at the hotel substantially exceeded the allowable daily rate established by the General
Services Administration.


4
  These are the actual hotel rates that MCC Washington booked for the MCA-Mali travelers.
5
  The allowable per diem rates were taken from the General Services Administration’s “FY 2009 Per Diem
Rates” for the Washington, DC, area.
6
  This is the cost of the occupancy taxes that were unnecessarily paid because MCC booked hotel rooms at
daily rates above the allowable daily rates. The applicable tax rate is 14.5 percent.

                                                  16
   Recommendation No. 12: We recommend that MCC book hotel rooms for
   accountable entities’ staff at rates within the allowable daily lodging rates
   established by the General Services Administration.

MCA-Mali Management Response

For both cases, it is our MCC partner who made the hotel reservations for the Malian
delegation to facilitate travel to Washington. The MCA had no involvement in this
process. We will share this recommendation with our MCC colleagues in charge of
travel.

USAID AIG/MCC Evaluation of MCA-Mali Comments

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.

   Recommendation No. 13: We recommend that MCA determine the allowability
   of the $407,767 in questioned costs and recover the amounts determined to be
   unallowable.

MCA-Mali Management Response

MCA Mali believes that the details and explanation along with supporting documentation
given above demonstrate compliance with the cost principle used in the interests of
transparency and regularity. All funds are strictly used for the goals of the compact.

USAID AIG/MCC Evaluation of MCA-Mali Comments

No management decision has been reached for this recommendation. We will make a
recommendation to MCC regarding these questioned costs.


Is MCA-Mali complying with MCC’s “Policies and Procedures for Common
Payment System” and its own fiscal accountability plan (FAP)?

The audit team selected expenditures from MCA-Mali’s general ledger for the period
from compact inception through December 31, 2009, using a judgmental sampling
methodology. The selected transactions formed the basis for the expenditures review
(see discussion above). If the selected expenditures involved payment via the Common
Payment System, the audit team also tested the transaction for compliance with various
criteria presented in MCC’s “Policies and Procedures for Common Payment System”
and MCA-Mali’s FAP. The results of the review verified that MCA-Mali complied with
both MCC’s “Policies and Procedures for Common Payment System” and its FAP.




                                         17
                                                                       APPENDIX I


             MANAGEMENT COMMENTS
       MCA MALI COMMENTS ON OIG DRAFT REPORT’S FINDINGS

Recommendation No. 1: We recommend that, to avoid potential delays,
MCA-Mali initiate planning to arrange for clearance or approval from
customs that will expedite the movement of project materials and supplies
through customs.

MCA Mali has sent a letter to the Government of Mali on July 15th 2010, in order
to intervene on his behalf with the Customs and Tariffs authorities to expedite the
receipt of a tax exemption status for our vendors/consultants. A copy of this
letter is joining in annexes to our response.

Recommendation No. 2: We recommend that MCA-Mali review the status
of all planned expenditures and cancel any significant operational
expenditures, such as the planned building renovation, that are not directly
related to project activities.

MCA-Mali has already cancelled the renovation works of its office building. This
is documented in the latest DFP submitted for approval at MCC on June 14,
2010. These expenses were included as necessary renovations to the space to
meet MCA’s business needs when selecting the office space for MCA-Mali
headquarters. Given delays in procurement and the reality that MCA-Mali is in
the third year of implementation, we agree that MCA-Mali can do with the space
as is, and agree to cancel this work. Please note that the decision to cancel the
renovations works was taken before OIG’s visit.

Subsequent to this recommendation, MCA has reviewed all administrative
related expenditures planned and already affected to assure efficient and
effective use of resources to achieve compact goals. This review did not reveal
additional questionable expenditures aside from the renovation.

Recommendation No. 3:          We recommend that MCA-Mali revise its
Procurement Operations Manual to be consistent with the Millennium
Challenge Corporation Program Procurement Guidelines, and include the
correct thresholds for all procurement methods.

We accept the above recommendation No. 3. Further, a review of the POM is in
progress at the PA level and all inconsistencies with the PPG will be corrected
NLT 31 10 10

Recommendation No. 4:         We recommend that MCA-Mali revise its
Procurement Operations Manual to describe the numbering process to be
used for purchase requisition notes and to require that purchase
requisition notes include estimated costs.

                                        18
                                                                      APPENDIX I




Since April 2010, a new template for Purchase Requisition Note is being used at
MCA Mali. The new template indicates the estimated cost. A sequential
numbering system of the Purchase Requisition Note is implemented and
performed by the secretary office of the Procurement Department. Attached is a
copy of the new template of the Purchase Requisition Note.

Recommendation No. 5: We recommend that MCA-Mali revise its vehicle
policy to establish proper control and accountability over vehicle use that
includes (a) destination signatures by users and (b) accounting for mileage
and fuel usage.

Currently, MCA-Mali maintains a mileage log for the proper usage of its vehicles.
MCA-Mali will now ensure that each driver records the mileage on departure,
each destination, and after each refueling and return trip. The MCA will require a
signature of the log by each passenger. MCA-Mali will undertake the training of
drivers in the proper completion of these logs. The analysis of fuel consumption
will be made by the Service Agent at the end of each month as usual and an
approval by the DAF of such analysis will be documented and retained. [This
procedure started in current month of July 2010.] Vehicles on board sheets are
attached in annexes of this response. The next revision of the FAP foreseen in
October 2010 will include these changes.

Recommendation No. 6: We recommend that MCA-Mali establish valid
employment contracts for all employees.

MCA Mali was awaiting the recruitment of the new DAF to complement the
existing team and help to improve personnel management. The DAF is finally on
board since June 7, 2010 and the contracts of six (6) concerned by your
comment has been updated (see attached copy). Now all our employees have
valid contracts with MCA.

Recommendation No. 7: We recommend that MCA-Mali develop and
implement a plan to fully implement its Manual of Administrative
Procedures to ensure that all personnel files are complete, including
personnel evaluations, applications, memos of negotiation, and reasons for
significant personnel actions.

MCA Mali has a set of procedures for the recruitment, assessment and
management of personnel. It lacks, however, an administrative procedure
manual. The DAF is already analyzing the various procedures in place in order
to develop and implement the administrative procedure manual by the end of
October 2010 which includes all questions above




                                       19
                                                                      APPENDIX I



Recommendation No. 8:         We recommend that MCC require that all
accountable entities have their proposed independent consultants prepare
a “Contractor Employee Biographical Data Sheet” and certify that the
historical consultant rates presented on such forms are accurate and true,
in order to ensure that independent consultants’ proposed rates are
reasonable and comparable to historical compensation rates.

The specific cases that are the subject of this recommendation relate to difficult
situations where high level national consultants were involved. Their fees have
served as a basis of negotiation which explains the significance of the rates
which unfortunately had not been sufficiently documented. MCA-Mali now
committed to document the reasonableness of the proposed rate of the
independent consultants. Expected time of completion 06/06/2010.

Recommendation No. 9: We recommend that MCA-Mali provide written
justification for needing 54 computers for a staff of 35 and explain how the
computers are currently being used.

Of the 54 computers, purchased by MCA Mali, 17 (seventeen) had been
purchased in 2007 on the CIF funds. They are no longer compatible with
commonly used software (AutoCAD, MS-Project, Symfact) and are in most cases
useless. Of the remaining 37(thirty seven) computers, there are also six (6)
laptops that are defective. Employees at MCA Mali with two computers (a
desktop and a laptop) have issues with one or the other computers in general.
MCA Mali has not yet decided on how to keep out of the system) the
defective/broken computers. Therefore, there is a difference between the
number of computers available (whatever the state is) and the number of
employees.

Regarding the use of laptops, it should be understood that apart from the travel
to the field by many employees of MCA Mali, their workload also requires access
to a laptop outside the offices and beyond office hours. Such access would be
impossible without a laptop.

Recommendation No. 10:        We recommend that MCC develop and
implement policies and procedures to ensure that its accountable entities
only purchase the minimum type, quality, and quantity of vehicles
necessary to accomplish the compact’s objectives.

2. Véhicules - $376,008.00 Unallowable

The MCA-Mali is a vast development program with two major projects: Airport
(PAA) and Alatona (PIA). The PIA whose area of coverage is over 400 km from
Bamako covers a radius of approximately 200 km. It includes six components,
each with a Hydro agricultural and community infrastructure can be considered a


                                       20
                                                                       APPENDIX I



project single project on its own partly because of the magnitude of these
operations.

The documentation of the « passation de Marché “ will let you know about the
value of the vehicle. Only CFAO Motors Accepted to reduce his prices according
to our budget. The supporting document of this negotiation will be attached to the
response.

There are three vehicles assigned to 5 agents based in Diabaly (Alatona Project).
The five (5) agents are in charge of close monitoring of service providers and
managers based in Bamako who in turn are in charge of the coordination and
supervision missions. Four (4) of the six (6) vehicles in Bamako that were
supposed to be assigned to the Finance and Administration department are
instead used for coordination and supervision missions for the implementation of
the PIA.     Only two (2) Peugeot sedans are permanently used by the
administration. Two (2) other vehicles are assigned to Airport activities.

During major events in the field, it is often the case for MCA Mali to rent vehicles
to meet its transportation needs. Regarding the purchasing of vehicles, we have
documentation currently in our archives to support these purchases. Please see
a copy attached for your reference,

Based on the above, it is our opinion that the amount of $376,008 spent to
purchase the six (6) Toyota Land Cruisers are allocable, reasonable, accounted
for, incurred within the grant period, documented and not excluded as
unallowable under section 4.

3. Employee Compensation - $14,006 Unallowable Cost

For the specific case of termination before the end of the contract with
compensation of months remaining MCA applied the law in force in Mali. Any
other approach would have affected the reputation of the compact and thus
jeopardize the achievement of its objectives. MCA-Mali has only followed the
Labor Code in force in Mali. From our point of view we just follow the Malian law
in the matter.

Recommendation No. 11:          We recommend that MCC (a) clearly
communicate to the management of all accountable entities that premium-
class travel should only be used under unusual circumstances, such as for
urgent travel where a trip is in excess of 14 hours and scheduling
constraints preclude an en route rest stop, and (b) ensure that all
accountable entities do not have travel policies and procedures that would
result in charges exceeding those which would be paid in accordance with
MCC’s travel policies.



                                        21
                                                                       APPENDIX I



3. Travel: Premium Class Airfare - $12,200 Unallowable Cost

Regarding the two cases for which the Chairman of the Supervisory Board and
the CEO of MCA Mali flew business class, the length of the trip took longer than
14 heures travel. Incidentally, the CEO of MCA Mali had written a memorandum
for the record as stated in the FAP.

Recommendation No. 12: We recommend that MCC book hotel rooms for
accountable entities’ staff at rates within the allowable daily lodging rates
established by the General Services Administration.

5. Travel: Lodging - $5,553 Unallowable Cost

For both cases, it is our MCC partner who made the hotel reservations for the
Malian delegation to facilitate travel to Washington.    The MCA had no
involvement in this process. We will share this recommendation with our MCC
colleagues in charge of travel.

Recommendation No. 13:         We recommend that MCC determine the
allowability of the $407,767 in questioned costs and recover the amounts
determined to be unallowable.

MCA Mali believes that the details and explanation along with supporting
documentation given above demonstrate compliance with the cost principle used
in the interests of transparency and regularity. All funds are strictly used for the
goals of the compact.




                                        22
